                                                       IG-00-032




AUDIT
                                 NASA CONTRACT AUDIT
REPORT                           FOLLOW-UP SYSTEM AT
                                JOHNSON SPACE CENTER

                                     May 19, 2000




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

   Assistant Inspector General for Auditing
   Code W
   NASA Headquarters
   Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to
the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html




Acronyms

ACO            Administrative Contracting Officer
CAS            Cost Accounting Standards
CATS           Corrective Action Tracking System
DCAA           Defense Contract Audit Agency
DoD            Department of Defense
FAR            Federal Acquisition Regulation
FY             Fiscal Year
GAO            General Accounting Office
NPG            NASA Procedures and Guidelines
OIG            Office of Inspector General
OMB            Office of Management and Budget
PNM            Price Negotiation Memorandum
RCA            Reportable Contract Audit
W                                                                                           May 19, 2000



TO:           A/Administrator

FROM:         W/Inspector General

SUBJECT: INFORMATION: NASA Contract Audit Follow-up System at
         Johnson Space Center
         Report Number IG-00-032


The NASA Office of Inspector General has completed an audit of the NASA Contract Audit Follow-
up System at Johnson Space Center (Johnson). We found that NASA policies and procedures for
resolution and disposition of contract audit findings and recommendations comply with the Office of
Management and Budget (OMB) Circular A-501 requirements. 2 However, the contract audit follow-
up system at Johnson can be improved. The system did not include complete records of actions taken
on findings and recommendations for all 16 sampled Defense Contract Audit Agency (DCAA) audit
reports for which the resolution and disposition authority had been delegated to the Department of
Defense (DoD). 3 We separately determined that the DoD administrative contracting officers (ACO’s)
had resolved the findings for 11 of the 16 reports, recovered $1.1 million of questioned costs that were
allocated to NASA contracts, and negotiated indirect rates that affected the NASA contracts. Further,
when NASA retained resolution authority for resolution and disposition of audit findings, we found
Johnson contracting officers did not track and report four of five reportable contract audit reports4 that
identified questioned costs of $2.4 million. Also, Johnson contracting officers did not resolve or
disposition the reportable findings and recommendations related to two of the five reports within 6
months after issuance of a final audit report as prescribed by OMB Circular A-50. As a result, the
benefits of contract audit findings and recommendations were delayed and potentially not maximized.

1
  OMB Circular A-50, “Audit Followup,” September 29, 1982, replaces and rescinds Circular No. A-50, “Executive
Branch Action on General Accounting Office Reports,” dated January 15, 1979, and incorporates certain provisions
previously set forth in Circular A-73, “Audit of Federal Operations and Programs,” revised, dated November 27,
1979.
2
  The Circular requires all agencies, including NASA, to establish audit follow-up systems “to assure the prompt and
proper resolution and implementation of audit recommendations.” It also requires that the follow-up systems
provide for a complete record of action taken on both monetary and nonmonetary findings and recommendations.
3
  When contractors have both DoD and NASA contracts, NASA may delegate to the DoD contract administration
functions, including resolution and disposition authority on DCAA audit findings and recommendations.
4
  A detailed definition of a reportable contract audit report is in Appendix B. The Defense Contract Audit Agency
provides NASA a monthly list of audits that are identified as reportable contract audits because NASA has the
authority to resolve and disposition the audit findings and recommendations. Disposition is achieved when the
contracting officer renders a decision as to the treatment of the audit recommendation and has executed a contractual
document with the contractor.
                                                                                                            2

Background

NASA uses the services of other Federal agencies to perform audits of contractors, educational
institutions, and nonprofit organizations receiving NASA grants and contract awards. In fiscal
years (FY’s) 1997 and 1998, NASA spent a total of $32 million ($16.5 and $15.6 million,
respectively) on contract audit services provided by the DCAA. Of the $32 million, NASA paid
$7 million for audit services performed for NASA contracts at Johnson.

Policies and procedures concerning NASA contract audit follow-up systems are contained in the
NASA Federal Acquisition Regulation (FAR) Supplement and NASA procedures and guidelines.
Those policies and procedures require that NASA contract audit follow-up systems track all audits
for which NASA has resolution and disposition authority and that audit recommendations be
resolved as expeditiously as possible within 6 months of issuance of the final audit report. The
NASA FAR Supplement also requires that when contract administration is delegated, NASA
contracting officers should at least semiannually review and document in the contract files the status
and disposition of significant audit findings.

Recommendations

In response to a prior audit of the NASA Contract Audit Follow-up System at Marshall Space
Flight Center (Marshall), the NASA Associate Administrator for Procurement concurred with
two audit findings and recommendations. The Associate Administrator for Procurement agreed
to reemphasize Agency and Federal requirements to ensure that NASA contracting officers
maintain a dialogue with DoD ACO’s who have been delegated administration on NASA
contracts and to resolve contract audit report recommendations within 6 months of issuance of
the final audit report. Therefore, we are making no other recommendation for corrective action
on these issues. However, we recommend that the Director, Johnson Space Center, provide the
definition of reportable audit reports to Johnson contracting officers and establish performance
standards for Johnson contracting officers to ensure effective contract audit follow-up.

Management Response and OIG Evaluation

Johnson management reissued to all procurement personnel a Procurement Advisory Notice
emphasizing the importance of tracking and reporting contract audit report recommendations.
The procurement notice included the definition of reportable audits. Johnson management also
discussed with the NASA Headquarters Office of Procurement the inclusion of specific criteria
into performance plans. Johnson determined that the current performance standards would be
sufficient because Agency oversight provides for tracking and dispositioning of audit findings,
and the Office of Procurement plans to issue additional guidance. 5 The standards hold Johnson
supervisory contract specialists responsible for the Center’s compliance with applicable
standards, regulations, and guidelines. Furthermore, the Office of Procurement separately




5
    The guidance resulted from recommendations contained in Audit Report IG-00-010, issued March 6, 2000.
                                                                                                    3

confirmed with us that the Office of Procurement would provide for a review of the effectiveness
in resolving and implementing audit recommendations during the procurement management
surveys conducted at each NASA center.

Management’s actions are responsive to the recommendations. Management's comments imply,
however, that NASA contracting officers do not have a responsibility to document the status and
disposition of audits of subcontractors. Management relies on the provision of the NASA FAR
Supplement 1842.73, "Audit Tracking and Resolution," which states, "NASA contracting officers will
maintain a dialogue with DOD Administrative Contracting Officers (ACO) who have been delegated
activities on NASA contracts." The FAR, however, states, in part, “The contracting officer is
responsible for the determination of price reasonableness for the prime contract, including
subcontracting costs.” Subcontracts are an integral part of a prime contract. DoD ACO’s have the
responsibility to inform NASA contracting officers of significant issues on prime contract and
subcontract audit findings. Our position is that NASA’s discussions with the DoD ACO’s regarding
such significant findings should be documented in the NASA contract files. Without the required
documentation, Johnson may not be able to ensure that audit findings and recommendations were
resolved in a timely manner and that the resolutions equitably protected NASA's interests. We found
multiple examples of significant dollar recoveries at the subcontractor level (one report involved a
recovery of $851,000), but no evidence of recoveries or documentation in the reviewed NASA
contract files regarding discussions on the status of audit findings resolved by the DoD ACO’s. The
Associate Administrator for Procurement has informed us that the forthcoming policy clarification to
be issued in response to our audit at Marshall, which is discussed earlier, will emphasize the role of
the NASA contracting officer relative to subcontract audits.

Details on the status of the recommendations are in the Executive Summary.



[original signed by]
Roberta L. Gross

Enclosure
Final Report on Audit of NASA Contract Audit Follow-up System at
 Johnson Space Center
                   FINAL REPORT
AUDIT OF NASA CONTRACT AUDIT FOLLOW-UP SYSTEM AT
               JOHNSON SPACE CENTER
W                                                                    May 19, 2000




TO:            H/Associate Administrator for Procurement
               M/Associate Administrator for Space Flight
               AA/Director, Johnson Space Center

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of the NASA Contract Audit Follow-up System at
               Johnson Space Center Redacted Report
               Assignment Number A9904500
               Report Number IG-00-032


The subject final report is provided for your use and comment. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Your comments on a draft of this report were responsive to the
recommendations. Management's actions are sufficient to close the recommendations for reporting
purposes.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program Director,
Procurement Audits, at (818) 354-3360 or Ms. Anh Doan, Auditor-in-Charge, at (818) 354-9773.
We appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix F.


[original signed by]
Russell A. Rau

Enclosure

cc:
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
R/Associate Administrator for AeroSpace Technology
JM/Director, Management Assessment Division
                                                        2
bcc:
AIGA, IG, Reading (w/o Enclosures) Chrons
JSC/BD/Manager, Procurement Policy and Systems Office
   /BG/Manager, Space Station Procurement Office
      /Audit Liaison Representative
W/JPL/180-300/L. Dear
             /A. Doan
  /JSC/L. Lin
      E. Lee
Contents


Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

      Finding A. Completeness of Follow-up System Records When NASA
                  Delegated Resolution Authority, 2

      Finding B. Tracking Reportable Contract Audit Reports, 5

Appendix A – Objective, Scope, and Methodology, 9

Appendix B – Reportable Contract Audit Reports, 11

Appendix C – Audit Reports for Which NASA Delegated Resolution and
             Disposition Authority, 12

Appendix D – Reportable Contract Audits Not Reported by Johnson, 13

Appendix E – Management’s Response, 14

Appendix F – Report Distribution, 20
                              NASA Office of Inspector General


IG-00-032                                                                                    May 19, 2000
 A9904500

                         NASA Contract Audit Follow-up System at
                                 Johnson Space Center

                                         Executive Summary

Background. NASA uses the services of other Federal agencies to perform audits of
contractors, educational institutions, and nonprofit organizations receiving NASA grants and
contract awards. In fiscal years (FY’s) 1997 and 1998, NASA spent $32 million ($16.5
million and $15.6 million, respectively) on contract audit services provided by the Defense
Contract Audit Agency (DCAA). Of the $32 million, NASA paid $7 million for audit
services performed for NASA contracts at the Johnson Space Center (Johnson).

To improve the effectiveness and efficiency of Government operations, the Office of
Management and Budget (OMB) Circular A-50 requires all agencies, including NASA, to
establish audit follow-up systems “to assure the prompt and proper resolution6 and
implementation of audit recommendations.” Resolution should occur within a maximum of 6
months after issuance of a final report, and corrective action should proceed as rapidly as
possible. The Circular also requires that the follow-up systems provide for a complete record of
action taken on both monetary and nonmonetary findings and recommendations. Furthermore,
the Circular establishes 11 standards that follow-up systems must meet, including assuring that
“performance appraisals of appropriate officials reflect effectiveness in resolving and
implementing audit recommendations.”

As part of its oversight duties, the NASA Headquarters Office of Procurement conducts surveys
at NASA installations that address, in part, contract audit follow-up of reportable contract audit
(RCA)7 reports.



* We have redacted portions of this report due to references to process information. The redacted passages do
not affect the validity of this report or management's response.
6
  Resolution is the point at which the audit organization and agency management or contracting officials agree
on action to be taken on reported findings and recommendations; or in the event of disagreement, resolution is
the point at which the audit follow-up official determines the matter to be resolved.
7
  A detailed definition of a reportable contract audit report is in Appendix B. The Defense Contract Audit
Agency provides NASA a monthly list of audits that are identified as reportable contract audits because NASA
has the authority to resolve and disposition the audit findings and recommendations. Disposition is achieved
when the contracting officer renders a decision as to the treatment of the audit recommendation and has executed
a contractual document with the contractor.
Objective. The overall audit objective was to evaluate the adequacy of NASA’s contract audit
follow-up system at Johnson. Additional details on the objective, scope, and methodology are in
Appendix A.

Results of Audit. NASA policies and procedures for resolution and disposition of contract audit
findings and recommendations comply with the OMB Circular A-50 requirements. However, the
contract audit follow-up system at Johnson can be improved. The system did not include complete
records of action taken on findings and recommendations for 16 of 16 sampled DCAA audit
reports for which the resolution and disposition authority had been delegated to the Department of
Defense (DoD). As a result, Johnson procurement personnel may not be able to ensure that audit
findings and recommendations were resolved in a timely manner and that the resolutions were in
NASA’s best interest (Finding A).

Johnson procurement personnel did not track and report four of five reportable contract audit
reports that identified $2.4 million in questioned costs and did not resolve or disposition8 two
of the five RCA reports' findings and recommendations within the 6 months after report
issuance pursuant to OMB Circular A-50. Consequently, audit findings were not resolved in
a timely fashion, and NASA funds that should have been disallowed, withheld, or reduced
could not be reallocated to benefit other NASA programs (Finding B).

Recommendations. We recommend that NASA management provide the definition of
reportable audit reports to Johnson contracting officers. Also NASA management should
establish performance standards for Johnson contracting officers that address their
effectiveness in resolving and implementing audit recommendations. During our audit of the
NASA Contract Audit Follow-up at Marshall Space Flight Center, NASA management
agreed to take NASA-wide corrective actions regarding (1) communication with DoD
administrative contracting officers (ACO’s) who have been delegated activities on NASA
contracts and (2) resolution of contract audit report recommendations within 6 months of
issuance of the final audit report. Therefore, we are making no other recommendations for
corrective action on these issues.

Management’s Response. Johnson management issued to all procurement personnel a
Procurement Advisory Notice emphasizing the importance of tracking and reporting contract
audit report recommendations. The procurement notice included the definition of reportable
audits. Johnson management considers the current performance standards sufficient in light
of the Agency oversight that provides for tracking and dispositioning of audit findings and the
additional guidance 9 that the Office of Procurement will issue in relation to a similar audit
conducted at Marshall Space Flight Center. Those standards would hold Johnson supervisory
contract specialists responsible for the Center’s compliance with applicable standards,
regulations, and guidelines. Furthermore, the Office of Procurement separately confirmed
with the Office of Inspector General that it would provide for a review of the effectiveness in

8
  Contract audit report disposition is achieved when the contracting officer renders a decision as to the treatment
of the audit recommendation and has executed a contractual document with the contractor.
9
  The guidance resulted from recommendations contained in Audit Report IG-00-010, issued March 6, 2000.

                                                         ii
resolving and implementing audit recommendations during the procurement management
surveys conducted at each NASA Center. The complete text of the response is in
Appendix E.

Evaluation of Management’s Response. The actions taken by management are responsive to the
recommendations. We consider the recommendations dispositioned and closed for reporting
purposes.

Management’s comments imply, however, that NASA contracting officers do not have a
responsibility to document the status and disposition of audits of subcontractors. Management
relies on the provision of the NASA FAR Supplement 1842.73, "Audit Tracking and Resolution,"
which states NASA contracting officers will maintain a dialogue with DoD ACO's who have been
delegated activities on NASA contracts (emphasis supplied). The FAR, however, states, in part,
“The contracting officer is responsible for the determination of price reasonableness for the prime
contract, including subcontracting costs.” Subcontracts are an integral part of a prime contract.
DoD ACO’s have the responsibility to inform NASA contracting officers of significant issues on
prime contract and subcontract audit findings. Our position is that NASA’s discussions with the
DoD ACO’s regarding such significant findings should be documented in the NASA contract files.
Without the required documentation, Johnson may not be able to ensure that audit findings and
recommendations were resolved in a timely manner and that the resolutions equitably protected
NASA's interests. We found multiple examples of significant dollar recoveries at the subcontractor
level (one report involved a recovery of $851,000), but no evidence of recoveries or documentation
in the reviewed NASA contract files regarding discussions on the status of audit findings resolved
by the DoD ACO’s. The Associate Administrator for Procurement informed us that the
forthcoming policy clarification to be issued in response to our audit at Marshall will emphasize
the role of the NASA contracting officer relative to subcontract audits.




                                                iii
Introduction

Policies and procedures concerning NASA contract audit follow-up systems are contained in the
NASA Federal Acquisition Regulation (FAR) Supplement 1842.7301 10 and NASA Procedures
and Guidelines (NPG) 1200.1. 11 The policies and procedures require that NASA contract audit
follow-up systems track all contract and OMB Circular A-13312 audits for which NASA has
resolution and disposition authority and that audit recommendations be resolved as expeditiously
as possible within 6 months of the issuance of the final audit report. NASA FAR
Supplement1842.7301 also requires that, when contract administration is delegated, NASA
contracting officers should at least semiannually review and document in the contract files the
status and resolution of significant audit findings.

Because DCAA performs contract audits for NASA, it relies on the DCAA to identify the
RCA reports and provide the Agency monthly lists of those reports (defined in Appendix B).
The NASA Office of Procurement provides the Centers the RCA report lists for their use in
contract audit follow-up. NASA Centers submit to Headquarters quarterly status reports on
actions taken on the RCA reports findings and the targeted dates for resolution and
disposition. Records of action taken on findings in the RCA reports are subsequently input
into a NASA procurement tracking system. For FY’s 1997 and 1998, Johnson submitted
status reports on a total of seven RCA reports. 13

The NASA Office of Inspector General (OIG) is responsible 14 (1) to review NASA’s policy for
obtaining contract administration and audit services, including those from the DCAA and (2) to
evaluate NASA’s follow-up systems and specific categories of contract audit work performed in
connection with NASA programs.




10
   NASA FAR Supplement 1842.7301, “NASA External Audit Follow-up System,” January 26, 1998.
11
   NPG 1200.1, “Management Accountability and Control, Audit Liaison, and Audit Follow-up,”
October 8, 1997.
12
   OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations,” revised
June 24, 1997.
13
   These RCA reports, included in the NASA procurement tracking system, were not the subject of our findings.
14
   Responsibility is assigned in the Inspector General Act of 1978.
Findings and Recommendations


Finding A. Completeness of Follow-up System Records When NASA
Delegated Resolution Authority

The Johnson contract audit follow-up system did not include complete records of action on
contract audit findings and recommendations for all 16 sampled DCAA audit reports 15 for
which NASA delegated resolution and disposition authority to DoD. Although Johnson
procurement personnel maintained some dialogue with the DoD administrative contracting
officers (ACO’s) who have been delegated activities on NASA contracts, Johnson did not
document the status and resolution of significant audit findings in the contract files as
required by NASA FAR Supplement 1842. As a result, Johnson may not have been able to
ensure that audit findings and recommendations were resolved in a timely manner and that the
resolutions equitably protected NASA's interests. Specifically, NASA may not have been
able to ensure that recovered questioned costs were appropriately distributed to NASA
contracts.

OMB and NASA Guidance

OMB Circular A-50 16 requires that agencies establish contract audit follow-up systems “to
assure the prompt and proper resolution and implementation of audit recommendations.” The
systems must provide “complete records of action taken on both monetary and nonmonetary


To fulfill the requirements of the Circular, NASA FAR Supplement 1842 requires NASA
contracting officers to communicate with DoD ACO’s who have been delegated activities on
NASA contracts. The NASA contracting officers are required to conduct a review of the
DoD ACO’s contract files, no less frequently than semiannually and to document in their
contract files the status and disposition of significant DCAA audit findings.

NASA Delegation of Resolution and Disposition Authority

NASA delegated to DoD the authority for resolution and disposition of the findings in the 16
reports reviewed (Appendix C lists the reports). However, Johnson procurement personnel
did not document the status and resolution of the report findings delegated to DoD ACO’s.
Therefore, Johnson's contract audit follow-up system did not have complete records of the
resolution and disposition status of the audit findings, and as a result, the amount of
questioned costs recovered and changes in billing rates on NASA contracts was not readily
apparent. Illustrations of our conclusions follow.



15
     The 16 DCAA audit reports include 7 incurred cost, 5 cost accounting standards, and 4 operation audits.
16
     OMB Circular A-50, “Audit Follow-up,” September 29, 1982.

                                                         2
•    Seven reports related to incurred cost audits 17 in which DCAA questioned specific costs
     charged by the contractor to the Government, including NASA, or questioned the rates
     used by the contractor. One report, for example, questioned $3.5 million in costs charged,
     and the ACO upheld all the questioned costs and questioned rates. NASA’s share of the
     questioned costs was $20,000. The Johnson contract file did not have any record of the
     recovery.

•    Five reports related to Cost Accounting Standards (CAS) and identified noncompliances
     with CAS 403 18 and 410, 19 significant inadequacies in cost accounting practices, and a
     contractor’s inadequate disclosure statement. 20 The Johnson contract files did not include
     any status or documentation of the resolution and disposition of the CAS issues.

•    Four of the 16 reports related to operation audits 21 that identified significant deficiencies
     in billing, budgeting, planning, and internal controls. One audit report, for example,
     identified eight significant deficiencies in the contractor’s X-PRESS Card program. 22
     Those deficiencies caused the inclusion of unallowable costs 23 in the contractor’s claimed
     costs and exposed the company to the risk of card misuse by the cardholders. Another
     report noted that the contractor did not make appropriate corrections to previously
     identified significant deficiencies in its billing system internal controls. Those
     deficiencies caused major billing errors, and DCAA recommended partial disapproval of
     the contractor’s billing system until the contractor corrected the deficiencies. All four
     report findings were resolved and dispositioned; however, the Johnson contract files did
     not have any record of the status and disposition of the deficiencies.

Johnson indicated that 10 of the 16 audit reports were related to NASA subcontractors.
NASA delegated to DoD ACO’s the authority to resolve and disposition the audit findings.
NASA Form 1430, Letter of Contract Administration Delegation, General, requires the DoD
ACO’s, among other things, to (1) obtain DCAA audit reports as requested and submit the
reports to the NASA contracting officer, (2) make secondary delegations as necessary and
provide copies of the delegations to the NASA contracting officer, (3) provide immediate
input to the NASA procurement office of significant program issues or problems, and (4)
provide input to the monthly report that includes the contractor’s systems, significant findings

17
   Incurred cost audits involve an examination of the contractor's cost representations so the auditor may express
an opinion as to whether such incurred costs are reasonable, applicable to the contract, and not prohibited by the
contract, by statute or regulation, or by previous agreement with, or decision of, the contracting officer.
18
   CAS 403, Allocation of Home Office Expenses to Segments.
19
   CAS 410, Allocation of Business Unit General and Administrative Expenses to Final Cost Objectives.
20
   A disclosure statement describes a contractor’s cost accounting practices to be used for estimating,
accumulating, and reporting contract costs.
21
   Operation audits are audits of a contractor’s business operation. For example, the primary audit objective in
reviewing a contractor’s budgetary systems and data is to establish that a sound budgetary system is operating
for company planning and cost control purposes. A secondary objective is to obtain a comprehensive overview
of the contractor's financial planning process.
22
   The X-PRESS Card program is a corporate procurement card program used to make low-dollar purchases of
goods and services.
23
   Unallowable cost means any cost which, under the provisions of any pertinent law, regulation, or contract,
cannot be included in prices, cost reimbursements, or settlements under a Government contract to which it is
allocable.
                                                        3
related to these systems, CAS violations, and issues that could affect NASA contracts. The
DoD ACO’s have the responsibility to inform the NASA contracting officers of reportable
subcontract audit findings, and those findings should have been documented in the NASA
contract files. The NASA contract files reviewed contained no documentation regarding the
status and resolution of audit findings.

We separately determined that the DoD ACO’s had resolved and dispositioned the findings
for 11 of the 16 reports. 24 For the 11 reports, the DoD ACO’s had recovered about $1.1
million of questioned costs and negotiated indirect rates that affected the NASA contracts.
Because Johnson contracting officers did not maintain adequate documentation, their contract
files lacked the resolution and disposition information on the 11 report findings and
recommendations. As a result, Johnson may not be able to ensure that audit findings and
recommendations were resolved by the DoD ACO’s in a timely manner and that the
resolutions equitably protected NASA's interests.

Corrective Actions To Be Taken by Management

We identified a similar finding during our audit of the NASA Contract Audit Follow-up at
Marshall Space Flight Center 25 and made a recommendation to the Associate Administrator for
Procurement. The Associate Administrator for Procurement concurred with the finding and will
reemphasize to all contracting officers the NASA FAR Supplement 1842.7301(3) requirements to
(1) maintain a dialogue with DoD ACO’s who have been delegated resolution authority on NASA
contracts and (2) conduct semiannual reviews and document the status and resolution of audit
findings. Further, contracting officers will require that delegated DoD ACO’s provide NASA with
detailed information on the resolution and disposition status of DCAA audit findings and
recommendations. Therefore, we are making no other recommendation for corrective action on
this issue. As a result of our review at Johnson, however, we plan to follow-up with the Office of
Procurement regarding the pending policy clarification on documenting, in contract files, the status
of significant audit findings on NASA prime contracts, including subcontracts with significant
findings.




24
     The 11 audit reports included 4 incurred cost, 3 CAS, and 4 operation audit reports (see Appendix C).
25
     Audit Report IG-00-010, dated March 6, 2000.

                                                          4
Finding B. Tracking Reportable Contract Audit Reports

Johnson contracting officers did not track and report four of five reportable contract audit reports26
that identified questioned costs of $2.4 million and did not resolve or disposition the RCA findings
and recommendations related to two of the five reports within 6 months of issuance of a final
report as prescribed by OMB Circular A-50. The reports were not tracked and reported because
Johnson contracting officers relied on the DCAA monthly lists of RCA reports only and were not
aware of the reportable contract audit reporting requirements. Also, Johnson did not monitor
contracting officers’ timeliness in resolving the RCA findings and recommendations or establish
performance standards for contracting officers to provide effective contract audit follow-up. As a
result, funds related to the audit findings (see Appendix D) that had not been reported and resolved
in a timely manner could not be reallocated to benefit other NASA programs

OMB and NASA Guidance

OMB Circular A-50 requires agencies to assign a high priority to the resolution of audit
recommendations and to implementation of corrective actions. The Circular states that
“Resolution shall be made within a maximum of six months after issuance of a final report or, in
the case of audits performed by non-Federal auditors, six months after receipt of the report by the
Federal Government. Corrective action should proceed as rapidly as possible.” Further, the
Circular requires that agencies:

                    Provide semi-annual reports to the agency head on the status of all
                    unresolved audit reports over six months old, the reasons therefor, and a
                    timetable for their resolution; the number of reports or recommendations
                    resolved during the period; the amount of disallowed costs; and collections,
                    offsets, write-offs, demands for payment and other monetary benefits
                    resulting from audits.

The Circular also requires that performance appraisals of appropriate officials reflect effectiveness
in resolving and implementing audit recommendations.

Additionally, NASA FAR Supplement 1842.7301 states that the NASA “external audit follow-up
system tracks all contract and OMB Circular No. A-133 audits where NASA has resolution and
disposition authority. The objective of the tracking system is to ensure that audit recommendations
are resolved as expeditiously as possible, but at a maximum, within 6 months of the date of the
audit report.”

Tracking RCA Reports

Johnson contracting officers did not track and report four of five RCA reports (see Appendix D for
details on the four reports). Johnson did not include these audit reports as action items in its RCA
reports list submitted to NASA Headquarters because Johnson contracting officers relied on the
DCAA monthly lists of RCA reports only and were not aware of the RCA reporting requirements.
The four RCA reports consist of the following:

26
     **Deliberative process information omitted.**
                                                          5
•    Two reports related to defective pricing in which DCAA questioned specific costs charged by
     the contractor to NASA. One DCAA report questioned $167,000 in overstated labor costs, and
     the NASA ACO recovered $17,500 of the questioned costs. The other defective pricing report
     questioned $262,000 in overstated subcontract and material costs. Johnson did not report the
     two defective pricing audits, and the NASA procurement tracking system did not include any
     record of the questioned costs.
•    One report involved an incurred cost audit in which DCAA questioned unallowable and
     unreasonable costs of $187,000. This audit report was not reported in the NASA procurement
     tracking system.
•    One operation audit report identified a $1.8 million cost savings. The NASA ACO resolved
     and dispositioned the report audit finding and recommendation, and NASA’s share of the cost
     savings is $1.3 million. The $1.3 million was not reported in the NASA procurement tracking
     system.

Resolution and Disposition of Audit Findings and Recommendations

Johnson did not resolve and disposition two of the five RCA audit reports not reported to
NASA Headquarters. One 27 of the two reports involved a defective pricing audit in which
DCAA questioned $262,000 in overstated subcontract and material costs. During our audit,
Johnson stated its disagreement with DCAA’s questioned costs but as of November 1999, did
not resolve or disposition the audit findings. The other audit report 28 related to an incurred
cost audit in which DCAA questioned $187,000 in unallowable and unreasonable consultant
services, stock dividends, and entertainment and employee morale costs. The questioned
costs did not impact the allowable general and administrative rate. Johnson did not report this
audit report in the NASA procurement tracking system, but was concerned that the contractor
failed to provide any data to support its costs. A Johnson contracting officer e-mailed and
advised the contractor on September 29, 1997, to take appropriate measures to support future
costs. We could not find any documentation that the contractor concurred with the Johnson
contracting officer’s e-mail and took the action to identify and exclude unallowable costs
from the overhead and general and administrative costs as required by the FAR. 29 We believe
that this audit report should have been resolved, dispositioned, and reported in the NASA
procurement tracking system because of the significant finding concerning unallowable and
unreasonable costs (see Appendix B for the definition of a reportable contract audit report).
Johnson recently notified the NASA OIG that the contractor is in the process of clarifying its
policies and procedures to provide for the identification and exclusion of unallowable cost
from its overhead and general and administrative expenses as required by FAR.



Timeliness and Performance Standards to Provide Effective Contract Audit Follow-up


27
   DCAA Audit Report 2661-98D42000001, dated May 5, 1998.
28
   DCAA Audit Report 3121-97J10250035, dated September 19, 1997.
29
   FAR 31.201-6, Accounting for Unallowable Costs.

                                                  6
Johnson has not established performance standards for contracting officers to provide effective
contract audit follow-up. Johnson indicated that audit follow-up is simply one of many important
aspects of a contracting officer’s performance and is unlikely to have specific criteria associated
with it. Johnson also stated that a general criteria addressing the contract specialist’s performance
related to contract management was sufficient. Further, the procurement surveys, conducted by the
NASA Headquarters Office of Procurement, address, in part, contract audit follow-up of reportable
contract audits. The NASA Headquarters review teams 30 obtained the RCA reports list from the
NASA Headquarters Office of Procurement as part of their overall contract review and determined
how the audits were used in the negotiation or development of the contracts. The contract
management performance standard and procurement surveys, however, did not specifically address
Johnson contracting officers’ effectiveness in resolving and implementing audit recommendations.
Therefore, Johnson should establish performance standards that address contracting officers’
timeliness and effectiveness in resolving and implementing audit recommendations as required by
OMB Circular A-50.

Other Issues for Consideration

Although forward pricing audit reports are not subject to Circular OMB A-50 time limits for
resolution or reporting requirements, we observed that price negotiation memorandums (PNM’s)31
did not always show the extent to which the contracting officers relied on the DCAA audit report
recommendations or the reasons for any variances from the audit recommendations. Further, the
PNM is used by DCAA in defective pricing audits. NASA management should consider
emphasizing with all contracting officers the need to provide more details in the PNM as required
by the FAR. 32 The PNM’s must include many items such as (1) the extent to which the contracting
officer relied on the submitted cost or pricing data and its use in negotiating the price; (2) any field
pricing assistance recommendations, including the reason for any pertinent variances from them;
(3) the Government’s negotiation objective and the negotiated position; and (4) when the
determination of price reasonableness is based on a cost analysis, the summary must address each
major cost element.

Corrective Action To Be Taken by Management

During our audit of the NASA Contract Audit Follow-up at Marshall Space Flight Center, 33
the Associate Administrator for Procurement concurred with a similar finding regarding the
timeliness of NASA’s audit resolution. The Associate Administrator will reemphasize to all




30
   The NASA review teams conducted procurement management surveys at NASA Centers under the authority
of NASA Handbook 1101.3, "The NASA Organization," with an emphasis on compliance with procurement
statutes and initiatives, regulations, procedures, and systemic procurement processes.
31
   Price Negotiation Memorandums are used to document in the contract file the principal elements of the
negotiated agreement.
32
   FAR 15.406-3, Documenting the Negotiation.
33
   Audit Report IG-00-010 was issued March 06, 2000.
                                                    7
Center procurement personnel the requirement to resolve contract audit report recommen-
dations within the 6 months from issuance of the final audit report, as required by OMB
Circular A-50 and NASA FAR Supplement 1842.7301. Therefore, we are making no other
recommendation on this issue.

Recommendations for Corrective Action
The Director, Johnson Space Center, should:

           1. Provide the definition of reportable audit reports to Johnson contracting
              officers.

           2. Establish performance standards that address the effectiveness of Johnson
              contracting officers in resolving and implementing audit recommendations, as
              required by OMB Circular A-50.

Management’s Response

Concur with recommendation 1 and concur with the intent of recommendation 2. Johnson
management reissued Procurement Advisory Notice 95-13R1 emphasizing the importance of
tracking and reporting on contract audit reports and recommendation. The notice includes a
definition of reportable audits. Johnson management also discussed with the NASA
Headquarters Office of Procurement the inclusion of specific criteria into performance plans.
Johnson determined that current performance standards are sufficient because Agency
oversight provides for tracking and dispositioning of audit findings and the Office of
Procurement plans to issue additional guidance. 34 The standards hold Johnson supervisory
contract specialists responsible for the Center’s compliance with applicable standards,
regulations and guidelines. Furthermore, the Office of Procurement separately confirmed
with the Office of Inspector General that the Office of Procurement would provide for a
review of the effectiveness in resolving and implementing audit recommendations during the
procurement management surveys conducted at each NASA Center. Finally, the Office of
Procurement previously agreed to issue a policy clarification on NASA contracting officer
responsibilities related to subcontract audits.

Evaluation of Management’s Response

The actions taken by management are responsive to the recommendations. We consider the
recommendations dispositioned and closed for reporting purposes.




34
     The guidance resulted from recommendations contained in Audit Report IG-00-010 issued March 06, 2000.

                                                      8
                    Appendix A. Objective, Scope, and Methodology
Objective

The overall objective of the audit was to evaluate the adequacy of NASA’s contract audit
follow-up system at Johnson Space Center. Specifically, we determined whether:

         • Policies and procedures for resolution and disposition of contract audit findings and
           recommendations are in compliance with OMB Circular A-50 requirements.
         • Follow-up activities ensure the prompt and effective resolution and disposition of
           contract audit recommendations, including the recording of action taken on all findings
           and recommendations.

We did not assess the adequacy of the ACOs’ resolution of audit findings.

Scope and Methodology

We performed the detailed audit work at Johnson Space Center, Houston, Texas. We reviewed
OMB Circular A-50 requirements; NASA’s policies, including NASA FAR Supplement 1842.73,
Procurement Notice 97-2, and NASA Procedures and Guidelines 1200.1; and other agencies’
policies referenced in NASA guidelines such as DoD Directive 7640.235 and the DCAA Contract
Audit Manual. We interviewed Johnson and DoD contracting officers to determine whether audit
findings and recommendations were resolved and dispositioned promptly and effectively. We also
interviewed the Johnson representative in charge of the contract audit follow-up system at the
Center and NASA headquarters officials in the Offices of the Chief Financial Officer and
Procurement.

To determine whether NASA’s follow-up activities ensure the prompt and effective resolution and
disposition of contract audit recommendations, we selected the DCAA audit reports containing
findings and reviewed the audit recommendations with the applicable Johnson contracting officers.
We randomly selected 100 out of 1,296 DCAA audits billed during FY’s 1997 and 1998.36 We
identified and reviewed 26 DCAA audit reports containing findings, including 5 forward pricing
audit reports.37 We also reviewed seven reportable contract audit reports reported by Johnson for
FY’s 1997 and 1998.




35
   DoD Directive 7640.2, “Policy for Follow-up on Contract Audit Reports,” August 16, 1995.
36
   Johnson provided the FY’s 1997 and 1998 billing data.
37
   Forward Pricing audit reports are not subject to Circular A-50 time limits for resolution or reporting
requirements. Records on the status of reports, maintained in official contract files, meet the Circular
requirement.

                                                         9
Appendix A


                                FY’s 1997 and 1998 Audit Reports Reviewed

                                                           Number     of             Reports
Type of Audit         Number            Reviewed            With Findings             Delegated to           Retained by
                      of Audits                                                          DoD1                 NASA2
Incurred Cost
                             840                    20                          8                      7                    1
       Cost
    Accounting               203                    20                          6                      5                    1
    Standards
    Operation                  53                   20                          5                      4                    1
     Defective
     Pricing3                 20                    20                          2                                           2
     Subtotal              1,116                    80                         21                    16                     5
     Forward
     Pricing4                180                    20                          5                     2                     3
      Total                1,296                   100                         26                    18                     8
1
  NASA delegated to DoD the authority for resolution and disposition of contract audit findings and recommendations.
2
  NASA retained the authority for resolution and disposition of contract audit findings and recommendations.
3
  The purpose of a defective pricing audit is to test whether the price, including profit, negotiated in a pricing action was
increased by a significant amount because the contractor furnished cost or pricing data that was not accurate, complete,
and current.
4
  A forward pricing audit involves an assessment of both the proposal (offer) and the offeror’s ability to successfully
accomplish the prospective contract and a determination that the proposal is acceptable for negotiation of a fair and
reasonable price.

Management Controls Reviewed

We examined Johnson policies and procedures concerning the contract audit follow-up process.
We also reviewed Johnson practices to track contract audit reports and to follow up on audit
recommendations for timely resolution and disposition.

We considered management policies and procedures to be adequate. However, controls need to be
strengthened to ensure that contracting officers maintain a dialogue with the DoD ACO’s
(Finding A) and report and resolve audit recommendations within 6 months as required by OMB
Circular A-50 (Finding B).

Audit Field Work

We performed the audit field work from June 1999 through January 2000. We conducted the audit
in accordance with generally accepted government auditing standards.




                                                             10
                Appendix B. Reportable Contract Audit Reports


The DCAA Contract Audit Manual 7640.1, Volume 2, Chapter 15, defines reportable contract
audit reports as:

             (1) Those reports containing findings and recommendations, whether or not the
                 findings are qualified, covering estimating system surveys, accounting and
                 related internal control system reviews, defective pricing reviews, and cost
                 accounting standards (CAS) matters. (Reports containing only favorable
                 findings and recommendations, such as CAS reports recommending that a
                 contractor's proposed accounting change be approved, or estimating system
                 surveys that only contain “suggestions for improvements” are not
                 reportable.)
             (2) Those reports covering operations audits, incurred costs, settlement of final
                  indirect cost rates, final pricing submissions, termination settlement
                  proposals, and claims if reported costs or rates questioned or
                  unsupported/qualified equal $100,000 or more.
             (3) Reports on audit-determined final indirect cost rates and Form(s) 1, to the
                  cognizant Administrative Contracting Officer (ACO) when the auditor
                  cannot reach an agreement with the contractor.




                                                   11
   Appendix C. Audit Reports for Which NASA Delegated Resolution and
                         Disposition Authority


**Deliberative process information omitted.**




                                                12
                                  Appendix D. Reportable Contract Audits Not Reported by Johnson
                                                        1




**Deliberative process information omitted.**
Appendix E. Management’s Response




               14
     Appendix E




15
Appendix E




             16
     Appendix E




17
Appendix E




             18
     Appendix E




19
                           Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans


NASA Centers

Director, Ames Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
 Chief Financial Officer, Goddard Space Flight Center
Director, Johnson Space Center
Director, Langley Research Center
 Chief Financial Officer, Langley Research Center
Director, John F. Kennedy Space Center
 Chief Counsel, Kennedy Space Center




                                              20
                                                                                     Appendix F


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
   Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
   Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space


Chairman and Ranking Minority Member -- Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                               21
                                 NASA Reader Survey

                  NASA Assistant Inspector General for Auditing

                                        Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing our
reader survey? For your convenience, the questionnaire can be completed electronically
through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be
mailed to the Assistant Inspector General for Auditing, NASA Headquarters, Code W,
Washington, DC 20546-0001.

Report Title: NASA Contract Audit Follow-up at Johnson Space Center

Report Number:                                   Report Date:


Circle the appropriate rating for the following statements.

                                                Strongly                                Strongly
                                                 Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and              5        4       3          2           1      N/A

   logically organized.
2. The report was concise and to the point.        5         4       3          2          1       N/A

3. We effectively communicated the audit           5         4       3          2          1       N/A

   objectives, scope, and methodology.
4. The report contained sufficient                 5         4       3          2          1       N/A

   information to support the finding(s) in a
   balanced and objective manner.

Overall, how would you rate the report?
    Excellent            Fair
    Very Good            Poor
    Good
If you have any additional comments or wish to elaborate on any of the above responses, please
write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                        Media
       NASA Employee                              Public Interest
       Private Citizen                            Other:
       Government:              Federal:             State:         Local:

May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone:
___________________________

Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement Audits

Anh T. Doan, Auditor-in-Charge

Lydia C. Lin, Auditor

Ellis D. Lee, Auditor

Nancy C. Cipolla, Report Process Manager

Betty Weber, Operations Research Manager

Christina Head, Program Assistant
